January 21,
        20052005
Report No. 05-005


FDIC’s Procurement of Administrative
Goods and Services




             AUDIT REPORT
                                                                                                Report No. 05-005
                                                                                                    January 2005




                                  FDIC’s Procurement of Administrative Goods
                                  and Services
                                  Results of Audit

Purpose of Audit                  The FDIC can improve the economy and efficiency of its procurement of
                                  administrative goods and services. DOA has not developed a formal
The FDIC contracts with           strategic approach for these procurements and, as a result, may not be
private firms to provide          taking full advantage of opportunities to reduce costs and maximize
goods or services and uses        procurement efficiencies. We estimated that the FDIC could save about
procurement credit cards to       $8.8 million over the next 3 years by developing a strategic approach,
purchase low-dollar-value         including performing spend analysis, for the procurement of such goods
goods or services.                and services.

FDIC’s Division of                In addition, DOA has not sufficiently established goals and performance
Administration (DOA) is           measures for the procurement process. Therefore, DOA cannot
responsible for the               adequately evaluate the overall efficiency of its procurements or the
acquisition of administrative     impact of its procurement initiatives.
goods and services. From
May 1, 2003 through
April 30, 2004, DOA               Recommendations and Management Response
purchases of administrative
goods and services totaled        We recommended that DOA establish a strategic approach for improving
about $101 million —              the procurement process, and develop a performance measurement
$98 million for contracts         framework to consistently monitor and periodically report on the
and $3 million for                procurement process.
procurement credit cards.
                                  FDIC generally agreed with the recommendations and has either taken or
The audit objective was to        planned actions to address them.
determine whether the
FDIC’s procurement of
administrative goods and
services is economical and
efficient.

                                  FDIC Procurements of Administrative Goods and Services From May 1, 2003
                                  Through April 30, 2004
                                                          $98



                                                                                          Contracts

                                                                                          Procurement
                                                                                          Credit Card
                                                                      $3

                                                           Millions
 To view the full report, go to
 www.fdicig.gov/2005reports.asp   Source: OIG Analysis.
                            TABLE OF CONTENTS
BACKGROUND                                                       1

RESULTS OF AUDIT                                                 2

FINDING A: USE OF A STRATEGIC PROCUREMENT APPROACH              3
  Use of Spend Analysis in Managing Procurements                3
  DOA Procurement Activities                                    3
  Recommendation                                                5

CORPORATION COMMENTS AND OIG EVALUATION                          5

FINDING B: MEASUREMENT OF PROCUREMENT PERFORMANCE                6
  Performance Measurement Framework                              6
      Competition                                                7
      Cost, Schedule, and Performance                            8
      Cost-to-Spend Performance Measure                          8
      Purchase Cards                                             9
      Other Federal Acquisition Council Performance Measures    10
  Conclusion                                                    10
  Recommendation                                                10

CORPORATION COMMENTS AND OIG EVALUATION                         10

FINDING C: PURCHASES FROM FEDERAL PRISON INDUSTRIES, INC.       11

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY                   12

APPENDIX II: CORPORATION COMMENTS                               14

APPENDIX III: MANAGEMENT RESPONSE TO RECOMMENDATIONS            18

TABLES

  Table 1:   Performance Measurement Framework                   7
  Table 2:   Percentage of Competed Procurements Over $25,000    7
  Table 3:   Averages of Contractor Performance Ratings          8
  Table 4:   FDIC Cost-to-Spend Performance                      9
  Table 5:   FDIC Procurements Under $25,000 from May 1, 2003
             through April 30, 2004                              9
Federal Deposit Insurance Corporation                                                                 Office of Audits
801 17th St. NW Washington, DC 20434                                                     Office of Inspector General




DATE:                                  January 21, 2005

MEMORANDUM TO:                         Arleas Upton Kea, Director
                                       Division of Administration


FROM:                                  Russell A. Rau [Electronically produced version; original signed by Russell A. Rau]
                                       Assistant Inspector General for Audits

SUBJECT:                               FDIC’s Procurement of Administrative Goods and Services
                                       (Report Number 05-005)


The Federal Deposit Insurance Corporation (FDIC) Office of Inspector General (OIG) has
completed an audit of the FDIC’s procurement of administrative goods and services. The audit
objective was to determine whether the FDIC’s procurement of administrative goods and
services is economical and efficient. Administrative goods and services generally include
security guard and educational services, space rentals, building maintenance, and a variety of
administrative supplies and miscellaneous services. Additional details on our objective, scope,
and methodology are provided in Appendix I.


BACKGROUND

The FDIC contracts with private sector firms to provide goods or services, and the FDIC’s
Division of Administration (DOA) establishes policies and procedures for the FDIC’s
contracting program. The Director, DOA, is the FDIC’s Chief Contracting Officer and has the
authority to develop contracting policy; solicit proposals; and enter into, modify, and terminate
contracts on behalf of the FDIC. FDIC contracting officers in DOA’s Acquisition Services
Branch (ASB) award and administer contracts in accordance with the FDIC’s Acquisition Policy
Manual (APM). DOA is responsible for the FDIC’s acquisition of administrative goods and
services.

As a supplement to contracted procurements, the FDIC established a procurement credit card
program to provide the Corporation with a simplified method of procuring low-dollar-value
goods or services, streamlining payment procedures, and reducing procurement administrative
time and costs. Designated FDIC employees may use the procurement credit card to make
authorized purchases within specified limits. The standard procurement card limit is $5,000 for a
single purchase1 and a total of $50,000 per month. Procurement credit card purchases are
authorized and administered by the division or office making the acquisition. ASB provides
guidance for using the procurement credit card, including restricting the purchase of some items.
ASB provides contract award and administration for DOA branches, such as the Corporate
Services Branch and Human Resources Branch, in the same manner it provides contracting
award and administration for other FDIC divisions and offices. DOA branches also use the
procurement credit card program. From May 1, 2003 through April 30, 2004, DOA purchases of
administrative goods and services totaled approximately $101 million — contract purchases
totaled about $98 million, and procurement credit card purchases totaled about $3 million.


RESULTS OF AUDIT

The FDIC can improve the economy and efficiency of its procurement of administrative goods
and services. DOA has not developed a formal strategic approach for such procurements. As a
result, DOA may not be taking full advantage of opportunities to reduce costs and maximize
procurement efficiencies (see Finding A). We estimated that the FDIC could save about
$2.93 million a year, or $8.8 million over the next 3 years, by developing a strategic approach,
including spend analysis,2 for the procurement of administrative goods and services. We will
include the $8.8 million in potential savings related to administrative goods and services
procurements as funds put to better use in the OIG’s next Semiannual Report to the Congress.

DOA has not sufficiently established goals and performance measures for the procurement
process. Therefore, DOA cannot adequately evaluate the overall efficiency of its procurements
of administrative goods and services or the impact of its procurement initiatives (see Finding B).

Finally, the FDIC did not require that the Federal Prison Industries, Inc., (FPI)3 be used as a
preferred source for goods and services in accordance with federal requirements in effect during
our audit period. However, the requirement was legislatively eliminated in December 2004, and
corrective action is not necessary.




1
  The single-purchase limit is the maximum amount a cardholder may charge for any single procurement. The FDIC
  determines the limits for individual cardholders and provides for purchases in excess of the standard limits. Neither
  cardholders nor merchants are permitted to split a single purchase into smaller amounts in order to avoid exceeding the
  single-purchase threshold.
2
  Spend analysis is a tool that provides management with knowledge about how much is being spent for certain goods and
  services, who the buyers are, and who the suppliers are. Spend analysis includes automating, extracting, supplementing,
  organizing, and analyzing procurement data.
3
  FPI funds training and employment for prisoners in federal penal and correctional institutions through the sale of its
  products and services to government agencies.




                                                           2
                          FINDINGS AND RECOMMENDATIONS
FINDING A: USE OF A STRATEGIC PROCUREMENT APPROACH

DOA has not established a formal strategic approach for its procurement of administrative goods
and services. Instead, DOA has focused on improving certain aspects of the contracting process.
Without an enterprise-wide approach, the FDIC does not have a good understanding of its
expenses for these procurements and may not be taking full advantage of opportunities to
leverage its buying power, reduce costs, and thereby more efficiently manage its contracts.

Use of Spend Analysis in Managing Procurements

According to a September 2004 U.S. Government Accountability Office (GAO) report entitled,
Best Practices: Using Spend Analysis to Help Agencies Take a More Strategic Approach to
Procurement,4 a strategic approach to procurement involves a range of activities — from using
spend analysis to develop a better picture of what an agency is spending on goods and services to
taking an enterprise-wide approach for procuring goods and services or developing new ways of
doing business. The strategic approach to procurement involves recognizing the urgency to
change procurement spending practices, obtaining improved knowledge on procurement
spending practices, implementing the changes, and demonstrating the value and credibility of
changes through the use of performance measurements. According to GAO, companies that
have implemented such an approach have achieved substantial savings. Likewise, GAO’s report
showed that three of the five federal agencies reviewed had noteworthy results when using spend
analysis to better manage their procurements. The report recommended using a spend analysis to
identify opportunities to leverage buying power, reduce costs, and provide better management
and oversight of suppliers.

Spend analysis is the continual analysis of procurement data, using consistent reporting and
analytical tools, to support procurement management decisions in the areas of cost cutting,
streamlining operations, and reducing the number of suppliers. According to GAO, using a
spend analysis to obtain improved knowledge on procurement spending is a component of an
effective strategic approach to procurement. The analysis identifies whether numerous suppliers
are providing similar goods and services, whether such arrangements are characterized by
varying prices, and where purchasing costs can be reduced and performance improved by better
leveraging of buying power and reducing the number of suppliers.

DOA Procurement Activities

Although DOA has not adopted a formal strategic approach to procuring administrative goods
and services, DOA has planned actions to change procurement spending. To address the FDIC’s
2004 corporate objective to substantially reduce corporate operating costs, DOA planned to
streamline its organizational structure, benchmark major support functions with those of similar
organizations, and implement identified best practices. Areas under review included contract


4
    GAO report number GAO-04-870.




                                               3
consolidation and elements of the procurement process. Additionally, ASB planned to reduce
costs and improve effectiveness by consolidating contracts.

DOA has been reviewing procurement-related areas to determine where cost savings can be
achieved by reducing the number of vendors, consolidating contracts, and using basic ordering
agreements and task orders instead of separate contracts. DOA analysis indicated that contract
consolidation could result in substantial savings. In October 2002, DOA consolidated 14
headquarters facilities management contracts into a single contract and projected savings of over
$713,000. In addition, DOA has considered consolidating DOA law firm contracts and is
working to consolidate contracts for other FDIC program office procurements.

Nevertheless, DOA could obtain improved knowledge on procurement spending using spend
analysis and could increase its effectiveness in identifying areas for improvement.

       •   DOA’s procurement actions from May 2003 through April 2004 included multiple
           contracts with the same vendor. For example, the Atlanta DOA office purchased
           furniture from one vendor using six contracts. Similarly, DOA contracted with multiple
           vendors to provide similar goods and services in different regions. In one instance, 3
           vendors provided photocopier services to the FDIC through a total of 67 contracts in the
           Boston, Atlanta, and San Francisco regions. Using spend analysis would identify the
           number of suppliers being used for specific procurement categories and the volume of
           procurement dollars being paid in total to each supplier. DOA has consolidated some
           contracts, but additional opportunities exist to reduce purchasing costs and leverage
           buying power by consolidating the acquisition of similar goods and services into fewer
           contracts.

       •   Of the 350 contracts for administrative goods and services awarded during our audit
           period, 216 (62 percent) were for less than $25,000. These contracts represented about
           $1.3 million (4 percent) of the $29 million awarded for administrative goods and services
           contracts. DOA may have opportunities to reduce costs in this area. For example, DOA
           had 22 contracts under $25,000 each for furniture and fixtures from 10 vendors. These
           contracts totaled about $232,000 but averaged about $10,500. Reducing the number of
           contracts per vendor and reducing the number of furniture and fixture vendors could
           reduce contract administrative costs and help DOA leverage its buying power by making
           larger purchases.

       •   DOA also makes contract procurements below the procurement credit card limit of
           $5,000. For example, DOA purchased a compact disk duplicator and recorder, seminar
           booklets, audio-visual equipment, consulting services, and furniture using six separate
           contracts for $5,000 or less. Encouraging procurement credit card use rather than
           contract use for these procurements could reduce the administrative cost per transaction
           by an estimated $66.5 Spend analysis that focuses on small contract awards could assist
           DOA in identifying areas where changes in procurement procedures and policies could
           result in more efficient and effective procurements.
5
    The Federal Acquisition Council (FAC) estimated the difference between the processing cost of a procurement card
    purchase and a purchase order at about $66 per transaction for the year 2000.




                                                            4
According to GAO, a spend analysis approach in the private sector reduces total procurement
costs by 10 to 20 percent for some companies. Three of the five federal agencies that GAO
studied have either launched or expanded their spend analysis efforts in the last 2 years and have
achieved noteworthy results. The Department of Veterans Affairs, for example, used an
automated spend analysis and a strategic approach to help save at least $394 million (2.9 percent)
of $13.5 billion in total procurements in 2003. The Department of Health and Human Services
estimated that it will save at least $9.5 million (9.5 percent) of $100 million in yearly spending
for office-related products (such as custodial supplies and office supplies, furniture, and
equipment) and peripheral information technology products. Further, using spend analysis, the
Department of Agriculture saved $1.8 million on purchases from a national office supply vendor
and has begun to use spend analysis to improve its buying power in additional areas.

The FDIC should utilize spend analysis techniques to obtain a better understanding of its
procurements and to identify opportunities for cost savings. If the FDIC continues to purchase
administrative goods and services at about $101 million per year for the next 3 years and
achieves a savings rate comparable to the Department of Veterans Affairs savings of 2.9 percent,
we estimated that the Corporation could save about $2.93 million a year ($101 million times
2.9 percent) or $8.8 million over the next 3 years ($2.93 million per year times 3 years).6 We
will include the $8.8 million potential monetary benefits as funds put to better use in the OIG’s
next Semiannual Report to the Congress.

Recommendation

We recommend that the Director, DOA:

(1) Establish a strategic approach for improving the procurement process and incorporate
    spend analysis techniques to identify opportunities for cost savings.


CORPORATION COMMENTS AND OIG EVALUATION

On January 13, 2005, the Director, DOA, provided a written response to the draft report, which
is presented in its entirety in Appendix II of this report.

DOA partially concurs with recommendation 1. In its response, DOA indicated that although
ASB has not developed a written, formal strategic plan, ASB partnered with FDIC stakeholders
to identify, plan, implement, and manage a streamlined and efficient procurement approach to
purchasing goods and services. ASB has used spend analysis concepts to initiate contract
consolidation activities in DOA’s Corporate Services Branch and the FDIC’s Division of
Information Resources Management. In addition, after a number of comprehensive studies and

6
    We used the 2.9 percent from the Department of Veterans Affairs because it was a percentage of total goods and
    services procured, and the percentage was the most conservative and most comparable to the FDIC’s procurements for
    administrative goods and services and to our audit objective. For GAO’s study, in addition to the 2.9 percent for the
    Department of Veterans Affairs, the other percentages were: 7 to 54 percent for the Department of Health and Human
    Services; however, those percentages related only to $100 million in expenditures (not the total universe) for office-
    related products; and 10 percent for the Department of Agriculture which GAO described as 10 percent less than the
    Federal Supply Schedule prices for office supplies (not the total universe of administrative goods and services).




                                                             5
analysis of purchase order activity, ASB is finalizing plans to increase the dollar limit for certain
high-volume procurement credit card holders to realize the overall administrative efficiencies
and cost savings to the Corporation. DOA is committed to continuous improvement and
innovation and will continue to identify opportunities to streamline and improve ASB business
practices.

Management’s action was responsive to our recommendation. The recommendation is resolved
but will remain undispositioned and open until we have determined that spend analysis
techniques are used on a strategic basis and are effective.


FINDING B: MEASUREMENT OF PROCUREMENT PERFORMANCE

DOA could do more to define goals for and measure the results of procurement processes and
initiatives in achieving overall purchasing objectives. Specifically, DOA does not use a
performance measurement framework to monitor overall procurement performance. Without
established performance targets; benchmarks; and consistent, periodic measurement and
reporting of performance results, DOA management may not be able to adequately evaluate
ongoing performance or the impact of procurement initiatives in reaching overall corporate cost-
saving goals. DOA could develop performance measures for administrative goods and services
procurements; however, a broader application that includes all procurements would present a
balanced perspective of the procurement process.

Performance Measurement Framework

The Federal Acquisition Council (FAC)7 established a committee to create, document, and
maintain a procurement strategic performance measurement and management framework. The
committee’s report entitled, Governmentwide Acquisition Performance Measurement Program,
dated April 2000, outlined specific goals and targets for a performance measurement framework.
The framework provides an overall methodology to monitor the procurement process, using
objectives, benchmarks, and consistent and quantifiable data accumulation and analysis. As
shown in Table 1 on the next page, the FAC developed performance measures that impact one or
more high-level procurement performance categories — timeliness, quality, price, and
productivity.




7
    The Procurement Executives Council, a government interagency council consisting of agency procurement executives,
    was established in 1999 to monitor and improve the Federal Acquisition System. In 2003, the council was renamed the
    Federal Acquisition Council to provide greater flexibility and a more inclusive reach beyond procurement.




                                                            6
Table 1: Performance Measurement Framework
                                                                 Performance Categories
      Performance Measure                        Timeliness        Quality    Price     Productivity
Competition                                                           9
Cost, Schedule, and Performance                        9              9        9
Cost-to-Spend*                                                                              9
Purchase Cards                                         9                                    9
Performance-Based Service                                             9        9
Contracts
Customer Satisfaction                                  9                9               9
Small Business Goals                                                    9
Education and Training                                                                               9
Electronic Commerce                                    9                                             9
Source: FAC report, Governmentwide Acquisition Performance Measurement Program.
*
  Cost-to-Spend is the ratio of the procurement office’s operating costs to the total obligations.

For an effective performance measurement framework, objectives, specific goals, and clearly
defined data sources and calculations must be defined for each measure. Comparison with
internal and government benchmarks based on comparable data can identify procurement
process strengths and areas for improvement. The following sections discuss the potential
application of the FAC performance measures to the DOA’s procurement process.

         Competition

         DOA captures data that could be used to develop a competition performance
         measurement but has not defined competition goals and does not monitor changes in the
         extent of competition for the FDIC’s contract procurements. To maximize the use of
         competitive procedures to obtain best values and promote fairness, the FAC suggested a
         competition performance measurement of the percentage of competed contract
         procurements costing over $25,000. Regarding agency reporting of procurements, the
         FAC suggested a 75-percent goal for 2001 for competed procurements and provided a
         benchmark of 72 percent for 1998 procurements. The FDIC competes a significantly
         higher percentage of its procurements over $25,000, as shown in Table 2.

         Table 2: Percentage of Competed Procurements Over $25,000*
                                        2000        2001         2002                                    2003
          DOA Goods and Services        98%         87%           93%                                    85%
          All FDIC Contracts            99%         93%           94%                                    87%
         Source: OIG analysis of Contract Monitoring Information Application (CMIA) data. The CMIA supports
         the management of awarded contracts using a Web-based application to compile procurement information.
         The CMIA includes contract procurements for the FDIC as a whole and does not include procurement
         credit card purchases.
         *
           The percentage is the contract award amount for competed contracts over $25,000 as a percentage of the
           total amount of all awarded contracts over $25,000. The FAC suggested that this metric be refined to also
           include competition for orders under multiple award contracts.




                                                            7
           Cost, Schedule, and Performance

           DOA could do more to evaluate the overall effectiveness of its contracting process.
           Specifically, DOA does not measure and track whether results of individual contract
           efforts achieve baseline goals, that is, cost, schedule, and performance expectations
           established at contract award, and does not combine individual contract results for an
           overall evaluation of the contracting process. As a result, DOA cannot readily compare
           current results with past results or benchmarks and cannot establish measurable
           improvement goals. The FAC’s procurement performance measures include measuring
           the percentage of baseline cost, schedule, and performance expectations that are met, and
           the FAC suggests achieving a 90-percent goal in each area.

           Although DOA did not measure whether contractors met baseline goals, it used a more
           subjective measure of contractor performance. Until 2003, DOA captured in an FDIC
           contractor performance management system the oversight managers’ ratings of contract
           quality, cost, timeliness, and business relations. DOA used the 10-point rating system to
           review the FDIC’s previous experiences with a contractor during the procurement’s
           evaluation phase. Although this information was a judgmental measurement of
           contractor performance collected for a specific purpose, DOA could have used the
           information as a measure of the overall contracting performance. As shown in Table 3,
           oversight managers’ ratings showed an overall decrease in contractor performance and in
           each of the rating categories for 2002. DOA discontinued use of the FDIC system at the
           end of 2002. Currently, the FDIC participates in a multi-agency contractor rating
           system.8 The FDIC had submitted contractor performance information for only 10
           contracts as of October 28, 2004, as shown in Table 3.

           Table 3: Averages of Contractor Performance Ratings
            Rating Categorya        2001b          2002b                              2003              2004c
            Quality                  8.1            7.8                                                  4.3
                                                                                    Information



            Cost                     7.8            7.6                                                  4.3
                                                                                     Available



            Timeliness               8.1            8.0                                                  4.1
                                                                                        No




            Business Relations       8.2            7.9                                                  4.3
            Summary                  8.1            7.9                                                Not Used
            Number of Ratings        105             57                                                   10
           Source: OIG analysis of the FDIC’s contractor performance evaluations.
           a
             Individual contractor performance ratings may not have included a rating for every category.
           b
             The maximum rating is 10 points for each rating category.
           c
             The maximum rating is 5 points for each rating category.

           Cost-to-Spend Performance Measure

           DOA could use operating cost and contract award information to develop a cost-to-spend
           performance measure. The operating costs for the ASB and the contract amounts
           awarded during a particular period are available from FDIC systems. However, DOA

8
    The FDIC obtains and submits contractor performance information to the Contractor Performance System hosted by the
    National Institutes of Health.




                                                           8
does not analyze this data in a manner that provides a consistent measurement of the
overall cost for procurements. By using a cost-to-spend performance measure, DOA
would have a method of evaluating the efficiency of the procurement process. The cost-
to-spend performance measure used by the FAC is the ratio of the procurement office’s
operating costs to the total contract amounts awarded. The FAC estimated that in 1998, it
cost the government about $0.02 to contractually obligate $1.00. To arrive at the
estimated cost-to-spend ratios for the FDIC shown in Table 4, we divided the ASB cost
by the total contract amount awarded for the years shown. With the exception of 2002,
the cost-to-spend ratio increased from 2000 through 2003. The cost-to-spend ratio for
2002 may be lower than normal because of the award of a $92 million dollar building
construction contract, a contracting exception for the FDIC.

Table 4: FDIC Cost-to-Spend Performance
                                                              2000           2001         2002          2003
 DOA Contracting Costs (millions of dollars)                   $6.6           $6.8         $8.7          $6.1
 Contracts Awarded (millions of dollars)                      $359           $306         $444          $215
 Cost-to-Spend                                             $0.0184        $0.0222      $0.0196       $0.0284
Source: OIG analysis of CMIA and FDIC Financial Data Warehouse information.

Purchase Cards

DOA could better evaluate purchases and determine cost savings through the use of the
procurement card as part of the overall procurement process. Specifically, DOA could
accumulate performance data on smaller, under $25,000, procurements and establish
overall goals for procurement credit card use. By implementing this performance
measure, DOA could emphasize the opportunities for costs savings through procurement
credit card use. The FAC suggested a performance objective of using the procurement
credit card to reduce administrative expenses and procurement processing time.
Additionally, the FAC proposed measuring the percentage of smaller procurement
transactions using the procurement credit card. The FAC also suggested a cost-savings
measurement based on the difference between the processing costs of a procurement
credit card purchase and a purchase order. For 2000, the FAC estimated the difference at
about $66 per transaction. As shown in Table 5, the FDIC achieves significant cost
savings by using the procurement savings card for procurements under $25,000.

Table 5: FDIC Procurements Under $25,000 from May 1, 2003 through
April 30, 2004
                                                                             DOA                   FDIC
 Contracts under $25,000                                                       216                   555
 Procurement Card Transactions under $25,000a                                5,530                13,105
 Total Procurement Transactions under $25,000                                5,746                13,660
 Procurement Card Percentageb                                                  96%                   96%
 Estimated Cost Savings                                                 $0.4 Million          $0.9 Million
Source: OIG analysis of CMIA data and procurement card statements.
a
  There were three procurement credit card purchases of $25,000 or more during the audit period, including one
 DOA purchase.
b
  The percentage is the ratio of the number of procurement card transactions under $25,000 to the total number
 of procurement transactions under $25,000.




                                                 9
       Other Federal Acquisition Council Performance Measures

       The FAC also developed measures for increasing the use of performance-based service
       contracts, ensuring that a fair portion of contracts or subcontracts are placed with small
       business enterprises, and increasing the education and training of contracting staff. The
       FAC also proposed a measure for customer satisfaction, including establishing
       percentage goals for end user satisfaction surveys. Measuring and monitoring
       performance in these areas would assist management in ensuring that the procurement
       process is efficient and effective.

       The FAC also included an electronic commerce performance measure in the proposed
       framework but did not develop the objectives, measures, goals, benchmarks, and data
       sources needed for an effective performance measure. The FDIC had planned to increase
       the use of electronic commerce, such as using automated interfaces with vendors for
       invoicing, with the implementation of a new core financial system. When the schedule
       for installing the financial system was revised, implementation of the electronic
       commerce components for procurement was indefinitely postponed. Defining objectives,
       goals, benchmarks, measures, and data sources for increasing electronic commerce for
       procurements would aid DOA in ensuring that electronic commerce initiatives are
       appropriate and in measuring progress implementing the initiatives.

Conclusion

DOA is examining its operations to achieve the Corporation’s goal to substantially reduce costs.
Areas under review include elements of the procurement process. As areas for improvement are
identified, DOA should clearly define goals and quantitative measures to monitor progress in
improving the procurement process for each area. A framework of performance measures would
assist DOA in evaluating the overall performance for procurements and in monitoring the effects
of efforts to improve procurement economy and efficiency.

Recommendation

We recommend that the Director, DOA:

(2) Develop a performance measurement framework to consistently monitor and periodically
    report on the procurement process and progress toward achieving goals to improve
    procurement economy and efficiency.


CORPORATION COMMENTS AND OIG EVALUATION

DOA concurs with this recommendation. DOA’s response indicated that ASB is benchmarking
current procurement practices and has initiated an effort to re-engineer business processes to
maximize customer service delivery. In addition, a DOA Task Force will be benchmarking
DOA against other organizations to identify a DOA-wide performance measurement framework.




                                                10
Management’s planned action is responsive to the recommendation. The recommendation is
resolved but will remain undispositioned and open until we have determined that the agreed-to
corrective action has been completed and is effective.


FINDING C: PURCHASES FROM FEDERAL PRISON INDUSTRIES, INC.

FDIC procurement policies do not require the ASB to consider the Federal Prison Industries, Inc.
(FPI), as a preferred source for acquiring goods and services. FDIC management was not aware
of the requirement to use FPI. As a result, ASB generally did not include FPI as a solicited
source for administrative goods and services.

At the time of our audit field work, federal departments and agencies and all other government
institutions were required to purchase, at not-to-exceed current market prices, FPI products that
met requirements and were available.9 In our draft report, we recommended that the Director,
DOA, establish policies and procedures to address federal requirements to purchase products
from FPI. In its response to the draft report, DOA concurred with our recommendation.
However, DOA noted that while ASB was preparing the policies and procedures to implement
corrective action, ASB learned that a recent legislative change removed the mandate that federal
agencies seek the FPI as an initial source. We confirmed that the requirements have been
removed.10 Therefore, there is no longer a need for related policies and procedures, and this final
report does not contain a related recommendation.




9
    During the audit period, the requirement to use FPI as a preferred procurement source was in 18 U.S.C. § 4124.
10
    The requirement was removed by Division H, Title VI, Sec. 637, of the Consolidated Appropriations Act of 2005,
    Pub. L. 108-447, signed by the President on December 8, 2004.




                                                           11
                                                                                                                            P
                                                                                                                            P
                                                                                                                            E
                                                                                                                            N
                                                                                                                            D
                                                                                                                            I
                                                                                                                            X
                                                                                                                            I
                                                                                                                            I

                              OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The audit objective was to determine whether the FDIC’s procurement of administrative goods
and services is economical and efficient. We performed our audit from April 5, 2004 through
November 16, 2004 in accordance with generally accepted government auditing standards.

Scope

The scope of the audit covered the FDIC’s administrative goods and services procurement
activity from May 1, 2003 through April 30, 2004. The universe of procurement transactions
included goods and services that are acquired by DOA. Examples of these procurements include
educational services, building maintenance, office equipment, supplies, mail/messenger services,
library materials, books, manuals, and memberships in professional organizations.

Methodology

To accomplish our objectives, we interviewed DOA staff in Washington, D.C., and FDIC field
offices and reviewed the procurement-related documentation described below to evaluate
existing procurement practices.

•      We obtained the universe of FDIC contract agreements from the Contract Monitoring
       Information Application (CMIA).11 The CMIA is a data application that enables access to
       pertinent FDIC databases in order to summarize FDIC contract details. CMIA reports are
       used by FDIC officials to help support the management of awarded purchase orders and
       contracts using a Web-based application to compile procurement information.

•      We interviewed DOA’s ASB staff in the Washington, D.C., headquarters office and in the
       FDIC’s field offices. Contract specialists provided specific contract files and described the
       nature of the transaction and potential alternative procurement practices that might have been
       more efficient.

•      We discussed DOA’s plans to streamline the procurement of administrative goods and
       services through interviews with the Associate Director, ASB, and other ASB managers.


11
     CMIA recorded 791 DOA contracts with payments, or pending payments, since April 30, 2003. We considered these
     contracts to be active contracts. We also identified 350 DOA contracts in the CMIA with an effective date within our
     audit period. We considered them as contracts awarded during our audit period.
                                                                                 APPENDIX I


    Those interviews were conducted to gain insight into the procurement plans envisioned for
    future FDIC contracting activities.

•   We reviewed DOA’s procurement customer service standards along with plans to implement
    new standards in mid-year 2004.

•   We obtained FDIC’s data on procurement card usage to evaluate whether the procurement
    card was being used to maximize efficiencies for FDIC’s administrative acquisitions.
•   We also obtained procurement card usage information for a number of other federal agencies
    to compare the FDIC’s card usage with similar organizations and to evaluate card-usage
    benchmarks.




                                              13
                       P
                       P
                       E
                       N
                       D
                       I
                       X
                       I
                       I

CORPORATION COMMENTS
Appendix II
     APPENDIX II




16
     APPENDIX II




17
                                                                                                                                     APPENDIX II


                                             MANAGEMENT RESPONSE TO RECOMMENDATIONS

This table presents the management response on the recommendations in our report and the status of the recommendations as of the date
of report issuance.
                                                                                                                                                       Open
 Rec.                                                                     Expected            Monetary       Resolved:a     Dispositioned:b             or
Number         Corrective Action: Taken or Planned/Status              Completion Date        Benefits       Yes or No        Yes or No               Closedc
              ASB has used spend analysis as a basis (1)
      1       for contract consolidation in DOA’s
              Corporate Services Branch and the Division
              of Information Resources Management and
                                                                                                 $8.8
              (2) for plans to increase the dollar limit for           January 13, 2005                         Yesd               No                  Open
                                                                                                Million
              certain high-volume procurement credit
              card holders. DOA is committed to
              identifying opportunities to streamline and
              improve business practices.
              A DOA Task Force will be benchmarking
      2       DOA against other organizations to identify
                                                                      September 30, 2005                         Yes               No                  Open
              a DOA-wide performance measurement
              framework.
a
    Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
               (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long as
                   management provides an amount.
b
  Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved through
implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the
recommendation.
c
    Once the OIG dispositions the recommendation, it can then be closed.
d
  Management did not address the potential monetary benefits in its comments. Therefore, we have requested that management provide additional comments stating
its position. We will monitor the monetary benefits through the corrective action closure process.
